No. 20-107

l NTHE
SUPREME COURT OF THE UNITED STATES

CEDAR P OINT NURSERY AND FOWLER PACKING COMPANY, INC.,

Petitioners,
V.

VICTORIA H ASSID, IN HE R O FFICIAL CAPACITY AS CHAIR OF THE
AGRICULTURAL LABOR R ELATIONS B OARD, ET AL.,

Respond en ts.

ON WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR UNITED FARMWORKERS OF AMERICA
AS AMicus CURIAEIN SUPPORT OF RESPONDENTS

PROOF OF SERVICE

I, Mario Martinez, a member of the Bar of this Court , do hereby certify
pursuant to Supreme Court Rules 29.3, 29.5, and 37.5 that I have, t his 12th day of
February of 202 1, caused to be served t hree (3) copies of the Brief for United Farm
Workers of America as Amicus Curiae in Sup p ort of Respondents in this proceeding
by causing them to be deposited with the United P arcel Service, with postage prepaid,

addressed to counse l of record at t he a ddresses list ed below:

Howard A. Sagaser
I an B. Wieland
Sagaser, Watkins & Wieland PC
5260 North Palm Avenue, Suite 400
Fresno, CA 93704
has@sw2law.com
ian@sw2law.com

Counsel for Petitioners
Joshua P. Thompson * Counsel of Record
Damien M. Sch iff
Wencong Fa
Christop h er M. Kieser
Pacific Legal Foundation
930 G Street
Sacramento, CA 95814
JThompson@pacificlegal.org
DSchiff@pacificlegal.org

WFa@pacificleg·al.org
CKieser@pacificlegal.org
Counsel for Petitioners
Xavier Becerra
Attorney General of California
Michael J. Mongan
Solicitor General
J anill L. Richards
Principal Deputy SolicitoT General
Thomas S. Pat terso n
Senior Assistant Attorney General
Joshua Patashnik * Counsel of Record
Deputy Solicitor General
Mark R. Beckington
Supervising Deputy Attorney General
R. Matthew Wise
Deputy Attorney General
Amari L. Hammonds
Associate Deputy Solicitor General
State of California
Department of Justic e
455 Golden Gate Avenue, Suite 11000
San Franc isco, CA 94102-7004

Josh. Pa tashnik@doi.ca.gov
Counsel for Respondents

I further certify that , pm·suant to Supreme Court Rule 29.3, I have caused

electronic copies of the brief to be served on the parties at the email addresses listed
above.

I further certify that all persons r q

,

MARIO MARTINEZ

Counsel of Record
MARTINEZ AGUIIASOCHO & LYNCH
A PROFESSIONAL LAW CORPORATION

Physical: 1527 19th St., Suite 332
Bakersfield, CA 93301
Mailing: P.O. Box 1998
Bakersfield, CA 93303
(661) 859-1174
mmartinez@farmworkerlaw.com
Attorneys for Amjcus Curiae United Farm
Workers of America
February 12, 2021

